V •
0“565

No. 20-_______

ORIGINAL
-FILED
OCT 2 8 2020

IN THE
SUPREME COURT OF THE UNITED STATE;

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI

George Matthews
Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
Tel: 404-213-8324
E-Mail: matthews.6038@vahoo.com
Pro-Se Petitioners

REC0VED
OCT 29 2020
Supremeq

V '
I.

Questions Presented

1. Whether the Eleventh Circuit Court failed to hold
Attorneys in contempt of court after evidence was shown they
violated orders from the Northern District Court
2. Whether the Eleventh Circuit Court failed to hold
other courts accountable for entering judgments against
Petitioners for a claim for attorney fees that was previously
adjudicated before the Northern District Court

1

r

ii.

Corporate Disclosure Statement

Pursuant to Rule 29.6 of this Court’s Rules, petitioner Sequenom, Inc. states
that it has no parent company, and no publicly held corporation owns 10% or more
of its stock.

III.

Parties to the Proceedings

George Matthews and Nina Matthew were Plaintiffs’ in the
George Matthews et al v. State Farm lawsuit and filed Motion for
Contempt against their prior attorneys on this same case
Attorneys Andrew J. Becker and , David Merbaum where the
Attorneys for the Plaintiff on the George Matthews et al v. State Farm
lawsuit until they were granted withdrawal from this case.

Related Cases
• Matthews et al v. State Farm Fire and Casualty Company
No. l:10-cv-01641 Northern District Court Atlanta,
Georgia
o Orders Attorney Fees re:Merbaum and Becker
(October 25, 2010 - Transcript of Motions Hearings
Before the Honorable Willis B. Hunt, Jr. United
States District Judge-orders were never filed to
court docket)
o Order Attorney Withdrawal January 5, 2011
Summary Judgment entered Matthews v. State
Farm February 13, 2012
o Judgment entered Motion for Contempt November
11, 2019
• Merbaum Law Group v. George E. Matthews III and Nina
Matthews No. 11-63910 US Bankruptcy Court Northern
District of Georgia Atlanta Division

2

o

o

Judgment to Allow Late of Proof of Claim (#60
order mislabeled on court docket as Order on
Motion to Extend Time)
Judgment to release Nina Matthews as Co-Debtor
entered November 10, 2015

• Merbaum Law Group v. Nina Matthews No. 15103498
Cobb Superior Court
o Summary Judgment Attorney Fees August 2, 2017
o Final Order Dismissing Case Without Prejudice
December 12, 2019

3

IV.

Table of Contents

Questions Presented

1

Corporate Disclosure Statement

2

Parties to the Proceedings

2

Table of Contents

4

Table of Authorities

5

Constitutional Provisions

6

Petition for Writ of Certiorari

6

Opinions Below

6

Jurisdiction

7

Constitutional Provisions Involved

7

Statutory Provisions Involved

7

Statement of the Case

8

Reasons for Granting the Writ

16

Conclusion

21

4

V.

Table of Authorities
Cases

Bostwick v. Brinkerhoff.

18

Catlin v United States

18

Citronelle-Mobile Gathering. Inc, v. Watkins

16

Durfee v. Duke

19

Embrv v. Palmer

19

Fowler v. Vineyard

20

Howard Johnson Col. Inc, v. Khiman

17

Mercer v. Mitchell

17

Rav Haluch Gravel Co. v. Cent. Pension Fund of Inti Union of Operating
Eng’rs & ParticipatingEmp’rs...............................................................................

17

Rilev v. N.Y. Trust Co

19.

Shillitani v. United States

16

Waldrop v. Green Countv Host). Auth

19

Statute s/Rule s
18U.S.C. §401
28U.S.C. § 455
28 U.S.C. § 1291
O.C.G.A § 9-12-40
O.C.G.A § 15-19-14
ABA Rule 2.9(A)

5

VI.

Constitutional Provisions

The Fourteenth Amendment provides in relevant part: [N]or shall any State deprive
any person of life, liberty, or property, without due process of law. U.S. Const.
amend. XIV, § 1.

VII.

Petition for Writ of Certiorari

George Matthews, pro se and Nina Matthews pro se, respectfully petitions
this court for a writ of certiorari to review the judgment of the Eleventh Circuit
Court of Appeals.

VIII.

Opinions Below

The unpublished memorandum opinion of the United States Court of Appeals
for the Eleventh Circuit Court is reported as George Matthews, et al v. Andrew J.
Becker. No. 19-15001-GG (11th Cir. June 2, 2019) is included herein as Appendix A.

6

IX.

Jurisdiction

This court has jurisdiction of this petition to review the judgment of the
United States Court of Appeals for the Eleventh Circuit pursuant to 28 USC
§ 1254. On March 19, 2020 the US Supreme Court extended the filing deadline to
150 days from the date of the lower court judgment to file any petition for a writ of
certiorari. The United States Eleventh Circuit Court entered its decision on June 2,
2020.
On April 15, 2020 the US Supreme Court ordered that any document filed in
the case prior to a ruling on a petition for writ may submit a single paper copy of
the document on 8 i4 x 11 inch paper and standards set forth in Rule 33.1 would
apply.

X.

Constitutional Provisions Involved

All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
XI.

Statutory Provisions Involved

28 U.S.C. § 1291: Final orders and judgments of district courts, or final
orders of bankruptcy courts which have been appealed to and fully resolved by a
district court under 28 U.S.C. § 158, generally are appealable. A final decision is one
that “ends the litigation on the merits and leaves nothing for the court to do hut
execute the judgment. ”
OCGA § 9-12-40, is the State of Georgia res judicata statute, provides that [a]
judgment of a court of competent jurisdiction shall be conclusive between the same

7

parties and their privies as to all matters put in issue or which under the rules of
law might have been put in issue in the cause wherein the judgment was rendered
until the judgment is reversed or set aside.

18 U.S. Code § 401 Power of court. A court of the United States shall have
power to punish by fine or imprisonment, or both, at its discretion, such contempt of
its authority, and none other, as—
(3)Disobedience or resistance to its lawful writ, process, order, rule, decree, or
command.

XII.

Statement of the Case

1. The Facts
A. Background
Petitioners George Matthews and Nina Matthews hired Attorneys David
Merbaum and Andrew Becker of Merbaum Law Group to file a lawsuit against
State Farm Fire and Casualty Company for breach of contract and bad faith [Civil
Action File No. 1:10-CV-1631] after trees damaged their home during a storm. The
case was filed to Cobb Superior Court but moved to the Northern District of Georgia
Atlanta Division. During the discovery phase of Matthews v. State Farm Attorneys
filed a Motion to Withdraw from the case. The court held a motions hearing on
October 25, 2010. Attorneys pleaded before Judge Willis Hunt they were owed
almost $20,000 for attorney fees (Motions Hearing October 25, 2010 Tr. 4).
However, attorneys acknowledged in Open Court that they had sent a letter to the
Matthews stating if the Matthews did not oppose their withdrawal from Matthews
v. State Farm that they would only owe $500 (Motions Hearing October 25, 2010 Tr.

8

32). Attorneys also acknowledged in Open Court that they were aware the
Matthews had an expert —an engineer to support their case but that there was a
wide discrepancy between the estimate $11,000 estimate of damages that State
Farm had written and $180,000 estimate which the Matthews had received from a
contractor (Motions Hearing October 25, 2010 Tr. 34). Judge Hunt also questioned
if attorneys had made an attempt to mediate the case with State Farm but the
attorneys stated they had not. Judge Hunt stated after hearing both sides he
would make the attempt to mediate the dispute between attorneys and the
Matthews (Motions Hearing October 25, 2010 Tr. 40). Judge Hunt ordered a
condition of the reconciliation would be for attorneys to agree to sign a contingency
contract which meant attorneys would only collect legal fees if they were successful
at resolution of the claim “You need to agree on a contingency [contract].” Judge
Hunt also stated attorneys were to move forward with the case if they could
reconcile by starting to take depositions and attempt to mediate with State Farm
before there was an order on the mediation (Motions Hearing October 25, 2010 Tr.
39). Judge Hunt also entered orders stating if attorneys did not reconcile they
would be relieved of their responsibilities and only receive out-of-pocket costs based
on the conditions in their letter. The order also stated that there would be no
additional money the attorneys could pursue from the Matthews (Motions Hearing
October 25, 2010 Tr. 41). Those orders were never recorded to the court docket. The
transcriber recorded a minute sheet which excluded the withdrawal but stated only

9

attorneys would make an attempt to reconcile.1 In fact, the transcript which
contained evidence of the orders was withheld out of the court record until after
Judge Steve C. Jones entered judgment on Matthews v. State Farm (Matthews v.
State Farm (Docket Report) No. l-10-cv-01641, N.D. Ga, Doc 103, April 11, 2012).
Attorneys did present an addendum to their original hourly contract which the
Matthews signed that they would pay $7,500 but the contract signed was also in
violation of Judge Hunt’s order that attorneys must agree to a contingency in order
to reconcile.2 About three weeks after attorneys agreed to reconcile they again
notified the Matthews that would file to withdraw from Matthews v. State Farm.
Based on the order entered on October 25, 2010 Judge Hunt relieved the attorneys
with a withdrawal order. Judge Hunt specifically referred in the order that
Plaintiffs did not oppose their attorneys withdrawal (Matthews v. State Farm
(Docket Report) No. l-10-cv-01641, N.D. Ga, January 5, 2011). In the Eleven
Circuit Court's opinion it was stated that the Matthews objected to their attorneys
withdrawal but their statement is contradictory to Judge Hunt’s withdrawal order
(Matthews v. State Farm (Docket Report) No. 19-15001, 11th Cir., June 2, 2020).
On January 19, 2011 attorneys showed that they chose to disregard the Northern
District Court order by filing a Notice of Lien claiming the Matthews were indebted
to them for almost $20,000. Being hindered by their prior attorneys public filings
the Matthews were unable to secure a new attorney for for Matthews v. State Farm

1 28 U.S. Code § 753(b)(2) states every court session or proceeding is to be recorded to the court
record included in the court record unless there was an agreement to the contrary.
2 Attorneys never filed a lawsuit for the $7,500 but instead filed to Cobb Superior Court for $20,000
of attorney fees and filed a Late Proof of Claim in the US Bankruptcy court for the $20,000
10

and signed on as pro-se litigants. Judge Steve C. Jones was reassigned to the case
to replace Judge Willis B. Hunt on the Matthews v. State Farm case. Noteworthy is
that State Farm did file a Motion for Sanction against the Matthews .3 The
Opposition brief provided evidence that State Farm’s engineer Cerney and Ivey was
found to be unlicensed by the Georgia Secretary of State but had written
engineering findings reports denying damage against the Matthews home and
potentially other customers across Georgia. The evidence filed to the case also
showed that the Matthews obtained evidence from documents which were held by
their prior attorneys David Merbaum and Andrew Becker which showed State
Farm had drafted findings reports on behalf of the Georgia Department of
Insurance and the attorneys remained silent that they were aware of the insurance
fraud done to the Matthews. Although the Northern District Court denied State
Farm’s Motion for Sanctions the Court failed to acknowledge evidence of insurance
fraud by State Farm which was filed to the case.
On April 1, 2011 the Northern District Court filed a Minute Sheet which
stated that the Northern District Court conducted mediation with parties in
chambers. There was never a mediation between the parties of the Matthews v.
State Farm conducted by Judge Steve C. Jones and there was never a mediation
ordered for the case (Matthews v. State Farm (Docket Report) No. l-10-cv-01641,
N.D. Ga, April 1, 2011). There was also no evidence found in the case to support
why the Matthews were punished to “take nothing” or ordered to pay State Farm’s
3The Matthews paid Attorney Crystal James Sermons of Crystal Jamates & Associates to write a
Brief in Opposition to the Motion for Sanction. Attorney Crystal James did not make an appearance
before the Northern District Court
11

litigation costs in the summary judgment ruling entered by the Northern District
Court (Matthews v. State Farm (Docket Report) No. l-10-cv-01641, N.D. Ga,
February 13, 2011. The Eleventh Circuit Court affirmed the decision Matthews v.
State Farm Fire & Cas. Co.. 500 F. App’x 836. 837. 843 (11th Cir. 20121.

B. By filing to other courts Attorneys refused to accept the Northern
District Court as final authority when their order stated attorneys
could only collect out-of-pocket costs while denying the $20,000 of
attorney fees
In May 2015 attorneys filed Merbaum Law Group v. George Matthews and
Nina Matthews in Cobb Superior Court requesting the same $20,000 in attorney
fees which had already been denied by the Northern District Court. The Matthews
had an active bankruptcy case and attorneys pursued them by first filing a Late
Proof of Claim to the US Bankruptcy Court Northern Division Atlanta and were
ordered to receive $19,928.83:--the same almost $20,000 which was denied by the
Northern District Court.4 Attorneys claims for attorney fees are governed by
Georgia statute O.C.G.A. 15-19-14(a). The statute is clear that attorneys
attorneys-at-law must have a lien on all papers and money of their clients in their
possession for services rendered to them. Attorneys were granted the $19,928.83
claim without holding any lien and in violation of Georgia law- thereby their Late
Proof of Claim was not only unlawfully filed but the judgment unlawfully ordered.
Money that was paid to Merbaum Law Group based on a claim filed by David

4 The judgment on the Late Proof of Claim entered by Judge Barbra Ellis-Monro was mislabeled in
the US Bankruptcy for Northern Division court docket as an order on Motion to Extend Time.
Merbaum Law Group, P.C. v. George E. Matthews III and Nina Matthews (Docket Report)
No. 11-63910 , US Bankruptcy N.D. Ga, September 16, 2015).
12

Merbaum and Andrew Becker was illegally stolen from other creditors who held a
lawful right to collect from the Chapter 13 bankruptcy account of George Matthews
when attorneys filed a fraudulent Late Proof of Claim for almost $20,000 after being
denied the attorney fees by the Northern District Court. The Bankruptcy court also
entered a order to release Nina Matthews from Automatic Co-Debtor Stay in order
to be pursued by attorneys in Cobb Superior Court although the attorney fees had
been previously adjudicated in the Northern District Court (Merbaum Law Group.
PC. v. George E. Matthews III and Nina Matthews (Docket Report) No.11-63910 ,
US Bankruptcy N.D. Ga, November 10, 2015).
In August 2017 Cobb Superior Court entered a judgment against Nina
Matthews also violating the Northern District Court order. The total judgment
entered by Cobb Superior Court was $39,902.66 which included the almost $20,000
of attorney fees denied by the Northern District Court plus interest, expenses and
late fees. In the State of Georgia attorney fees are governed by Georgia statute
O.C.G.A § 15-19-14 which requires all attorneys to hold a lien in order to be granted
a judgment.5 Similar to the bankruptcy judgment Cobb Superior Court entered a
judgment for the Attorneys who held no lien. The judgment was appealed before
the Georgia Court of Appeals but was affirmed. Attorneys continued to pursue the
judgment refusing to acknowledge their claim for attorney fees had been previously
adjudicated in the Northern District Court. In December 2019 Judge Reuben Green

5OCGA 15-19-14(b) Upon actions, judgments, and decrees for money, attorneys at law shall
have a lien superior to all liens except tax liens; and no person shall be at liberty to satisfy
such an action, judgment, or decree until the lien or claim of the attorney for his fees is fully
satisfied.
13

of Cobb Superior Court entered Final Order Dismissing The Case Without Prejudice
and disposing the case before the court (Merbaum Law Group v. Nina Matthews
(Docket Report) No.15-1-3498-51, Cobb Superior Court Ga, December 12, 2019).

C. Alleged mail fraud related to court cases

Petitioners first identified suspicious activities involving mail delivery to
their residence when they received email notifications which was related to mail
being delivered to their home. The Petitioners received harassment emails based
on information the person had captured based on viewing what was arriving in
their mail. The mail became even more suspicious relating to the Merbaum Law
Group v. Nina Matthews when the a certified letter relating to an appeal was sent
from Cobb Superior Court but after the first notice was delivered there was no
further notice by the mail person who delivered the mail. More than five months
passed but the mail person made a second attempt to deliver the same certified
letter from the court. When the court record was checked it indicated a Proof of
Service entry which adversely steed that Nina Matthews had not paid for the filed
appeal and was not responsive to certified mail. It appeared the The proof of service
entry to Cobb Superior Court was timed for the re-delivery of the certified mail to
Nina Matthews. Cobb Superior Court had not received information from USPS to
indicate that there was an attempt of the mail but yet the record would have
thwarted the appeal.6 A Complaint was filed to the US Postal Service (#3814) after
6 USPS mail service rule states if there is no successful deliver after 15 days the mail is to be marked
undeliverable and returned to send.

14

the Petitioners identified that their mail was being intentionally delayed and there
was evidence the mail was tampered with. The incident was filed into the
Merbaum v. Nina Matthews court record. Other suspicious mail continued to arrive
at the Petitioners residence. The Matthews also began noting that Judge Reuben
Green who presided over Merbaum Law Group v. Nina Matthews began directly
pursuing Nina Matthews with letters from his office. This was a violation of ABA
Rule 2.9(A) Ex Parte Communications which clearly stated a judge shall not
initiate, permit, or consider ex parte communication outside the presence of the
parties or their lawyers concerning a pending or impending matter. Nina Matthews
had also previously filed a complaint to the Georgia Judicial Commision in the State
of Georgia and filed to the Georgia Court of Appeals and Georgie Supreme Court
seeking relief from violations of ex-parte but the complaints and appeals were
dismissed without relief yet the mail continued to arrive from Judge Green. The
Matthews signed with the USPS in order to monitor the mail being delivered to
their home and it became apparent that much of the mail was circumventing the
post office and not being scanned before being delivered to the Petitioners home.
Mail that was related to both Merbaum Law Group v. Nina Mathews and George
Matthews v. State Farm cases were being delivered to the Matthews home but
circumventing scanning by the USPS post office. The mail carrier who had been
delivering to the Petitioners residence for over three years was found to be hiding
his identity by wearing a stolen ID badge of a postal letter carrier. The imposter
only stopped delivering mail to the Petitioners residence after a suspicious activity

15

report was filed with Cobb County Police. The Matthews filed several complaints to
USPS Office of Inspector General and were contacted about the case. There is an
open investigation into this matter. The USPS Postmaster has been contacted with
photo and videos of suspicious people who have continued to come to the Petitioners
residence perpetrating as USPS mail carriers.

XIII.

Reasons for Granting the Writ

A. To hold attorneys as officers of the court accountable for their
disobedience to a lawful order and punishment for filing the
same case before other courts which had been previously
adjudicated
Petitioners are seeking that this court grant review of this case in order to
hold attorneys as officers of the court accountable for very serious violations. This
case presents this Court with an opportunity to enforce the standard that our courts
must take bold action and hold those in contempt when their orders are violated.
The Petitioners became targets of their prior attorneys’ after the attorneys
declined to pursue Defendant State Farm insurance on behalf of the Matthews. The
attorneys were encouraged by the court to pursue mediation on behalf of the
Matthews by the Northern District Court (Motions Hearing October 25, 2010 Tr.
39). Attorney’s made ad decision to walk away from the case and decided they did
not wish to earn their legal fees by pursuing State Farm Insurance, Instead the
attorneys chose to file lawsuits against their ex-clients for same $20,000 which was

16

denied by the Northern District Court rather than pursuing mediation on behalf of
their clients.
A. Attorney’s willfully disobeyed the court’s orders and were not
subjected to the contempt based on their actions
It is well-established that “[cjcourts have inherent power to enforce
compliance with their lawful orders through civil contempt. “Citronelle-Mobile
Gathering, Inc. v. Watkins, 943, F.2d 1297, 1301 (11th Cir. 1991)(citing Shillitani v.
United States, 384 U.S. 364, 370 (1966)). Once a plaintiff shows through clear and
convincing evidence that the defendant has failed to comply with the Court’s order,
id., this this Court should “enter[ ] an order requiring the defendant to show cause
why he should not be held in contempt and conduct a hearing on the matter”,
Mercer v. Mitchell, 908 F.2d 763, 768 (11th Cir. 1990)(citation omitted). The only
defense available in a contempt action requires proof of the defendant “either...did
not violate the court order or that he was excused from complying.” Id. (citation
omitted). See also Howard Johnson Col, Inc v. Khiman, 892 F.2d 1512, 1516 (11th
Cir. 1990)(“[T]he focus of the court’s inquiry in civil contempt proceedings in
complying with the order, but whether in fact their conduct complied with the order
at issue”)(citation omitted). Attorneys David Merbaum and Andrew Becker
disregarded the authority of the Northern District Court and refused to
acknowledge their claims for attorney fees had been adjudicated.

17

B. The decision by the Northern District Court that attorneys
would not receive attorney fees was final
Judge Hunt offered to mediate the disagreement between the Matthews and
the attorneys by asking the attorneys to attempt reconciliation but at the same
hearing Judge Hunt also ordered that if the attorney’s decided to withdraw they
could collect no attorney fees because of their decision to withdraw from the case.
The amount of $500 was based on their letter. 28 U.S.C 1291 states that final
orders and judgment of district courts unless appealed are the final decision. A
judgment that terminates an action is a final decision. Mohawk Indus., Inc. v.
Carpenter, 558 U.S. 100, 106 (2009). This Court’s long-standing precedent
establishes that a final decision is “one that ends the litigation on the merits and
leaves nothing for the court to do but execute the judgment.” Ray Haluch Gravel Co.
v. Cent. Pension Fund of Int’l Union of Operating Eng’rs & Participating Emp’rs,
134 S. Ct. 773, 779 (2014); Bostwick v. Brinkerhoff, 106 U.S. 3, 4 (1882) (stating
that “[i]f the judgment is not one which disposes of the whole case on its merits, it is
not final”). When attorneys did not seek to appeal Judge Hunt’s order for attorney
fees, the decision was final. Catlin v United States, 324 U.S. 229,233,65 S. Ct. 631,
89 L.Ed. 911 (1945) (the statute's core application is to rulings that terminate an
action) also (in the ordinary course a "final decision" is one that ends the litigation
on the merits and leaves nothing for the court to do but execute judgment). When
Attorneys did not appeal Judge Hunt’s ruling all actions on the collection of
attorney fees for the legal work on the Matthews v. State Farm were terminated.
Attorney’s were aware that all litigation was final based on their decision to

18

withdraw from the Matthews v. State Farm case. Thus there was no merit to the
attorneys filing a claim Cobb Superior Court or the US Bankruptcy Court for Late
Proof of Claim after they were heard by the Northern District Court which stated
that the Attorneys could only collect $500 for out-of-pocket costs could collect no
additional money from their clients after their withdrawal.
C. The 11th Circuit Court harmed the Petitioners by ordering
that the state and bankruptcy courts come into compliance
with the Northern District Court order which denied attorney
fees
Embry v. Palmer7 is the one most often cited for the rule that state courts
must give full faith and credit to federal adjudications. The rule of 28 U.S.C. §§
1738—1739 pertains not merely to recognition by state courts of the records and
judicial proceedings of courts of sister states but to recognition by “every court
within the United States,” including recognition of the records and proceedings of
the courts of any territory or any country subject to the jurisdiction of the United
The Northern District Court failed to examine that a judgment was entered which
violated the existing order and failed to give credit to its own order. The Supreme
Court has said, on a number of occasions, that in examining a sister-state judgment
for full faith and credit purposes, a court must give the judgment the res judicata
effect the judgment would have in the state where rendered.8 As the Supreme Court
has put it, "[b]y the Constitutional provision for full faith and credit, the local
7107 U.S. 3 (1882) The Supreme Court of the District of Columbia is a court of the United States,
and its judgment, when suit is brought thereon in any the Union, is, under the legislation of
Congress, conclusive upon the defendant except for such cause as would be sufficient to set it aside
in the courts of the district.
8 See, e.g., Riley v. N.Y. Trust Co., 315 U.S. 343,349(1942). Ina Number Of recent cases, the Court
has invoked the principle to require federal courts to apply the res judicata rules

19

doctrines of res judicata, speaking generally, became a part of national
jurisprudence.9 Georgia's principle of res judicata has been codified as OCGA
§ 9-12-40, which states that “[a] judgment of a court of competent jurisdiction shall
be conclusive between the same parties and their privies as to all matters put in
issue or which under the rules of law might have been put in issue in the cause
wherein the judgment was rendered until the judgment is reversed or set aside.”
See Fowler v. Vineyard, 261 Ga. 454, 455, 405 S.E.2d 678 (1991). “Three
prerequisites must be satisfied before res judicata applies-(l) identity of the cause of
action, (2) identity of the parties or their privies, and (3) previous adjudication on
the merits by a court of competent jurisdiction.” (Footnote omitted.) Waldroup v.
Greene County Hosp. Auth., 265 Ga. 864, 866(1), 463 S.E.2d 5 (1995); see also
OCGA § 9-12-42; Fowler v. Vineyard, supra at 455-456, 405 S.E.2d 678. Although
Cobb Superior Court dismissed their case against Nina Matthews the court never
acknowledged that the attorneys case had been adjudicated and did not hold the
attorneys responsible for withholding evidence from the court that their case was
heard before. The Supreme is the rule is beyond doubt, and the state courts have
generally accepted it. Indeed, the only semblance of resistance has appeared when
there seemed to be something "wrong" with the judgments presented; it has never
stemmed from a refusal by state courts to accept the general proposition that
federal judgments as such are as binding on them under res judicata principles as
are the judgments rendered by courts within their own system.
9 Riley v. N.Y. Trust Co., 315 U.S. 343,349 (1942); see also Durfee v. Duke, 375 U.S. 106, 109 (1963)
('Full faith and credit... generally requires every State to give to a judgment at least the res judicata effect
which the judgment would be accorded in the State which rendered it.").
20

)

XIV.

Conclusion

For the foregoing reasons, Petitioners George and Nina Matthews
respectfully requests that this Court issue a writ of certiorari to review the
judgment of Eleventh Circuit Court of Appeals.

DATED this 26th day of October, 2020

Respectfully submitted,

George Jvlatthews, pro se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (404) 213-8324
E-Mail: matthews.6038@vahoo.com

Nina Matthews, pro se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (678) 231-7726
E-Mail: matthews.6038@vahoo.com

21

